NRC: OIG-99-A-14 Review of the Development and Implementation of STARFIRE
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 2000
> OIG-99-A-14
OIG-99-A-14 Review of the Development and Implementation of STARFIRE
June 29, 2000
Report
Synopsis
Introduction
Background
Results of
Audit
Implementation of
STARFIRE as Envisioned Is Uncertain
STARFIRE
Managers Have Not Identified Overall Cost to Nrc or Updated Key Planning
Documents
STARFIRE
Project Bears Similarities to Previous Agency Information Technology
Development Efforts
Conclusion
Recommendations
OIG
Comments on Agency Response
Appendix I:
Objective, Scope, and Methodology
Appendix
II: Agency Response to Draft Report
Recommendation
1.
Recommendation
2.
Recommendation
3.
Recommendation
4.
Recommendation
5.
Recommendation
6.
Appendix
lII: NRC Organizational Chart
Appendix
IV: Major Contributors to this Report
Appendix V:
Office of the Inspector General Products
Investigative
Audit
Regulatory
Report Synopsis
The U.S. Nuclear Regulatory Commission (NRC)
began planning for the Standard Financial and Integrated Resource Enterprise
(STARFIRE) system in early 1997, with a vision of it serving as the single,
authoritative source of financial and resource information for NRC. Three
offices-the Office of the Chief Financial Officer, the Office of the Chief
Information Officer, and the Office of Human Resources-are directly involved in
this effort. According to STARFIRE planning documents, the system would consist
of 10 modules, be operational by October 1999, and cost approximately $6.9
million to implement.
Work on the system's Core Accounting Module
(Core), considered the system's "cornerstone," was terminated in July 1999,
after the contractor missed several delivery dates. Pursuit of a Core has been
delayed until Fiscal Year 2002 or later, and NRC is currently working on
implementation of the Basic Human Resources, Payroll, Time and Labor, and Cost
Accounting modules. By the end of March 2000, NRC had spent approximately $6.7
million on this project, awarded another $2 million to contractors for work on
STARFIRE, and had expected to implement three of the modules for parallel
testing.1
(During parallel testing, data is entered into both the new modules and the
existing NRC payroll system to determine if both systems produce consistent
results.) The Office of the Inspector General's review focused on whether NRC
has a sound methodology in place for developing and implementing an integrated
financial management system that meets expectations, at cost, and within
expected time frames.
We found that (1) the implementation of
STARFIRE, as envisioned, is uncertain, (2) STARFIRE managers have not identified
the overall cost to NRC or updated key planning documents, and (3) the STARFIRE
project bears similarities to previous agency information technology development
efforts. Our report makes six recommendations to address the issues
identified.
Introduction
The Office of the Inspector General (OIG)
initiated a review of the development and implementation of STARFIRE,2
the U.S. Nuclear Regulatory Commission's (NRC) planned integrated financial
management system, following the agency's termination of a contract to implement
the system's Core Accounting Module (Core). NRC postponed implementation of this
Core, described in a key planning document as the "cornerstone of the STARFIRE
system," until Fiscal Year (FY) 2002 or later and to proceed with implementation
of other system modules. Given the size of the STARFIRE project, its
characterization as a relatively high risk project, and NRC's past difficulties
managing large-scale information technology (IT) projects, we were concerned
about how the agency was planning, managing, and overseeing this
project.
NRC has stated that STARFIRE will bring the
agency into compliance with the Government-wide requirement that agencies employ
managerial cost accounting as a fundamental part of their financial management
systems. For both FY 1998 and FY 1999, OIG identified the absence of a
managerial cost accounting process as a material weakness, relative to the
Federal Managers' Financial Integrity Act. The fact that NRC plans to have the
components of STARFIRE in place to address this weakness by the end of September
2000 gave us further impetus to conduct this review.
Our objective was to determine whether NRC has a sound methodology for implementing
an integrated financial management system that meets expectations, at cost,
and within expected time frames. Appendix I contains additional information
on our objective, scope, and methodology.
Background
STARFIRE is the name given to NRC's vision of a
fully integrated, agency-wide financial and resource management system.
According to NRC's STARFIRE website,3
the system is expected to comprise 10 modules (i.e., commercial off-the-shelf
[COTS] software customized by NRC) plus an executive information system and data
warehouse. The 10 modules anticipated are Core Accounting, Cost Accounting, Time
and Labor, Payroll, Human Resources, Budget Formulation, Travel Management,
Property, Procurement, and Performance Measurement. When completed, NRC expects
the system to serve as the single, authoritative source of financial and
resource information.
NRC initiated STARFIRE planning in early 1997.
At that time, former NRC Chairman Shirley Jackson requested that NRC articulate
a plan to develop an agency-wide financial management system that would be
operational within the next 2 years. By August 1997, NRC had developed a
document identifying functional requirements for the STARFIRE components. By
December 1997, the agency had produced a Capital Planning and Investment Control
(CPIC) document (i.e., benefit-cost analysis) on STARFIRE and a Project Action
Plan describing the management and technical approach, schedule, organizational
commitment, and risks associated with the project.
Together, these three documents composed the
business case, or justification, for developing the STARFIRE project,
characterized in the business case as having a relatively high likelihood that
it could "fail" because of the "broad scope of the undertaking." According to
the business case documents, STARFIRE (inclusive of 10 modules) would be totally
operational by October 1999 at an estimated cost of $6.9 million.4
The documents also specified that in developing the project, NRC would, as
required, follow an approach consistent with the agency's Systems Development
Life-Cycle Management (SDLCM) methodology.
The STARFIRE Project Charter, dated December
1997, designated the agency's Chief Financial Officer (CFO) to serve as
STARFIRE's Executive Sponsor. The Executive Sponsor is the chief decision-maker
and person with overall responsibility for the project. The Charter also
designated an Office of the Chief Financial Officer (OCFO) staff member to serve
as the STARFIRE Project Manager, responsible for planning, controlling, and
coordinating the project, as well as for project schedule, cost, and quality.
The Project Manager also serves as the Business Team Project Manager. In this
capacity, the Project Manager is responsible for reporting progress to the
Executive Sponsor and recommending whether or not to proceed at critical
milestones for the project. Finally, the Charter designated an Office of the
Chief Information Officer (OCIO) staff member to serve as the Technical Team
Project Manager, reporting to the STARFIRE Project Manager.
In February 1998, Chairman Jackson approved the
Executive Director for Operations' request to proceed with the STARFIRE project
and authorized the Contracting Officer to enter into a contractual agreement
exceeding $3 million. In that same month, NRC awarded a purchase order5 to
ICF Information Technology, Inc. (ICF), for the acquisition and installation of
five of the STARFIRE modules. Plans were for ICF to implement the Core
Accounting Module first. ICF's total estimated cost to NRC was $1.46 million for
the base year (and $3.4 million for a full 5-year effort, including maintenance,
training, and optional requirements). Initially, ICF had a February 1999
deadline for producing a fully functional Core Accounting Module. When the
contractor missed this deadline, NRC gave two subsequent extensions, which were
also missed. On July 23, 1999, after the contractor failed to deliver a fully
functional Core by a June 1999 deadline (established in an amendment to the
purchase order), NRC terminated the purchase order for default. A settlement was
reached and, ultimately, NRC agreed to a termination for convenience and to pay
ICF $450,000. As part of the settlement, NRC received the software for the
Travel Management Module.
After the termination, NRC senior management
decided to postpone further pursuit of a Core Accounting Module for 2 to 3 years
because they felt that, at that future time, available core accounting software
would be more mature. This differs from the business case documents, which
describe an approach for implementing the Core first because all of the
remaining modules must interface with this "cornerstone." However, OCIO and OCFO
staff involved with the project told us they are confident that they can bring
in the Core at a later date and that the necessary integration will be
achievable.
In the meantime, NRC had moved ahead with other
portions of STARFIRE. In September 1998, NRC accepted a proposal from Andersen
Consulting LLP (Andersen) to implement three modules (Time and Labor, Payroll,
and Human Resources6)
which the agency had purchased from a different company for STARFIRE. The
initial purchase order, for $2.14 million, called for Andersen to implement the
three modules by September 30, 1999. There have been four amendments to this
original agreement. Together, these amendments extended the implementation
deadline for the three modules to January 31, 2000, and increased the original
dollar amount by nearly 100 percent, raising the total to $4.02 million. A
portion of the increase was related to Full HRIS and, therefore, not
attributable to STARFIRE. By March 2000, the contractor had expended all funds,
and OCFO requested that an additional $1.05 million be budgeted for the Andersen
work. The agency's Division of Contracts and Property Management (DCPM)
considered this increase "significant" enough to warrant the Chairman's
notification and approval. Pending the Chairman's review, a purchase order for
$150,000 was issued so Andersen could continue to work on STARFIRE. This
purchase order also extended the implementation deadline to October 2000.
Subsequently, the Chairman approved OCFO's request for $1.05 million for
Andersen to continue work to implement the three STARFIRE modules. Ultimately, a
purchase order was issued for $574,000 instead of the higher figure.7
Also, in March 2000, NRC awarded a contract to Price Waterhouse Coopers, LLP, in
the amount of $1.3 million to implement the Cost Accounting Module.8 In
examining the status of the full STARFIRE project, we found that NRC had, as of
March 2000, spent approximately $6.7 million on the project and had expected to
implement three of the modules for parallel testing purposes.9
Results of Audit
Although NRC prepared the necessary planning documents to initiate the STARFIRE
project, we found that NRC has not employed adequate oversight to the project.
We found that (1) the implementation of STARFIRE as envisioned is uncertain,
(2) STARFIRE managers have not determined the overall cost to NRC or updated
key planning documents, and (3) the STARFIRE project bears similarities to previous
agency IT development efforts.
Implementation of STARFIRE as Envisioned Is Uncertain
While NRC envisions STARFIRE to become a fully
integrated agency-wide financial management system, the effort to implement a
Core Accounting Module was unsuccessful. Without the Core, the goal of a fully
integrated system cannot be achieved. Although there may be various reasons for
the inability to implement the Core - some within the agency's control and
others outside - NRC has not made a focused, concerted effort to document what
it learned from that experience to prevent a recurrence in the future.
Furthermore, it has not documented its revised approach to implement the system.
As a result, we believe, the implementation of a fully integrated financial
management system, as envisioned for STARFIRE, is uncertain.
The STARFIRE planning documents describe the
system as an automated and integrated approach to conduct agency-wide financial
and resource functions that has as its "cornerstone" a Core Accounting Module to
which all the other modules interface. According to NRC's functional
requirements for STARFIRE, this Core will house the General Ledger and interface
with all other modules to produce standard and required reports. The Core,
identified as the centerpiece of the system, was to be operational in 1½
years.10
STARFIRE managers told us that their intent was to implement the Core first and
then implement the other modules to integrate with the Core. Furthermore, they
had expected that the vendor selected to implement the Core would also be able
to implement a large number of the remaining modules.
Despite the intended approach for implementing
STARFIRE, NRC's effort to implement the Core Accounting Module did not succeed
and the agency decided to undertake a different approach to accomplish the same
vision. We did not attempt to focus on the reasons underlying the unsuccessful
attempt to implement the Core, although we received various suggestions as to
why this may have occurred. Possible explanations from NRC staff included (1)
immature technology in terms of in-house, client-server core accounting software
for use by the Federal Government, (2) the contractor's overestimation of its
abilities, (3) an inadequate financial software certification process, (4) a
project schedule that lacked interim deliverables, (5) inadequate functional
requirements developed by NRC, and (6) an unrealistic initial time frame for
implementing the system.
After the unsuccessful Core Accounting Module
development effort, NRC decided not to pursue a Core for several years. It seems
crucial, therefore, that a written lessons learned analysis be prepared to
document the reasons for the lack of success and what could be done differently
to prevent the same problems from recurring. According to one STARFIRE manager,
there were valuable lessons learned through the experience with the Core. One
lesson was that a more intensive demonstration of the product being evaluated
and considered for purchase should be completed. Nevertheless, we were told that
this and other ideas had not been formally documented.
In a 1997 OIG Special Evaluation,11
we noted that NRC had a history of problems in developing and implementing management
information systems. We also identified the need for the agency to learn from
its own successes and failures, as well as those of others. In addition, agency
guidance in Management Directive (MD) 2.212
specifies the importance of lessons learned documents. While MD 2.2 refers specifically
to the preparation of lessons learned papers after an IT system becomes operational,
we believe it is of equal importance to document lessons learned in a situation
such as STARFIRE, where the Core never became operational.
STARFIRE Managers Have Not Identified Overall Cost to Nrc or Updated Key Planning
Documents
While agency guidance concerning the development
of IT systems describes specific measures for managing major projects, STARFIRE
managers have not followed certain basic portions of this guidance. By failing
to follow these fundamental project management measures - such as maintaining
updated project schedules and management plans - the managers place a "high
risk" project further at risk and contribute to STARFIRE's uncertain future.
NRC's CPIC process and SDLCM methodology outline
the steps needed to keep IT projects within budget and on schedule. The CPIC
guidance presented in MD 2.2, and the accompanying Handbook, are aimed at
ensuring that NRC has a CPIC process that maximizes the value and assesses and
manages the risk of IT investments. It is also intended to promote managers'
accountability. Earlier CPIC guidance, effective prior to MD 2.2's approval in
May 1999, also emphasized the importance of a project management plan, with
milestones and deliverables, as a basis for project management.
Guidance on the SDLCM methodology is found in
Draft MD 2.5.13
This draft directive was issued in January 1997 as interim guidance for
application system life-cycle management until a final version could be
approved.14
The SDLCM methodology is intended to be a structured approach to designing,
developing, deploying, maintaining, and decommissioning information systems.
Everyone involved in the application system development and maintenance process
at NRC is required to use the SDLCM methodology. Similar to the CPIC guidance,
the SDLCM methodology emphasizes the importance of using the project action plan
as a project management tool and requires that the plan be updated throughout
the process as appropriate. Another important SDLCM requirement is that there
will be a formal Quality Assurance (QA) Plan describing the QA approach to be
followed. The SDLCM guidance points out that the methodology is intended to be a
flexible tool that calls for differing levels of adherence based on project
scope and cost. However, we were told that there are certain components that
must be addressed in a project such as STARFIRE.
While STARFIRE managers followed some of the
measures required by the CPIC process and the SDLCM methodology, they did not
employ certain fundamental strategies required by the guidance. Despite the
unsuccessful attempt to implement the Core Accounting Module - which has
necessitated an entirely different approach to the project - STARFIRE managers
have never revised their business case documents, although they see the need to
do so. It also appears that specific individuals involved with STARFIRE maintain
the knowledge-base for the project. Our concern is that costly delays could
result if these individuals were to become unavailable for an extended period of
time, and there was no up-to-date documented approach for development and
implementation. Furthermore, the STARFIRE Project Manager told us that the
initial vision for STARFIRE is changing in the sense that the final system may
not include an executive information system, a data warehouse, and a Performance
Measurement module. Yet, the latest information available on the new STARFIRE
web site does not reflect these uncertainties.
With regard to schedule - another basic project
management tool - STARFIRE managers stated they do not keep the schedules up to
date as a routine matter. Furthermore, there is no concrete schedule information
concerning the project as a whole. The STARFIRE web site states only that
implementation of 7 of the 12 currently planned STARFIRE components (i.e., 10
modules, a data warehouse, and an executive information system) has "been
postponed until Fiscal Year 2002 or later." STARFIRE managers also told us they
have no reliable estimate of when the system might be complete.
The project also lacks a written risk mitigation
plan for STARFIRE, despite OCIO's specific request to OCFO to provide one.
Interestingly, Handbook 2.2, which states that a project management plan15
should include a one- to two-page plan explaining how risks will be managed,
refers readers to the NRC web site for a specific example of such a plan. The
one-page plan to which it refers is titled, "Illustrative Risk Management
Plan for Basi[c] Human Resources Portion of STARFIRE," yet the actual project
management plan for Basic HRIS includes only a paragraph on the subject. We also
were told by STARFIRE managers that because STARFIRE was relying on COTS
software, a large portion of the SDLCM is not applicable. For example, we were
told the portion of the SDLCM pertaining to QA did not apply.
With regard to cost, the CPIC guidance requires
that the project cost estimates developed as part of the business case allow the
sponsor to manage the project within 5 percent of the projected cost and
schedule. Yet, we found that STARFIRE managers lack an estimate of overall
project cost.
We also found that DCPM has not been reviewing
contractor invoices for the project, but relying on the STARFIRE Project Manager
to conduct that level of review. DCPM has been primarily depending on the
STARFIRE Project Manager to notify them of schedule changes and missed
milestones, should they occur, instead of tracking the project in a more
proactive manner. We were pleased to learn that DCPM has recently strengthened
its approach to monitoring this contract. A contract specialist now will be
attending weekly meetings on STARFIRE and reviewing and signing off on all
invoices pertaining to STARFIRE. DCPM will also receive monthly technical
progress and financial status reports concerning the project.
We believe that the project management concerns identified during this review
are, in large part, due to a lack of experience and training necessary to coordinate
a project such as STARFIRE. NRC requires that project officers complete the
agency-sponsored acquisition training courses, but according to a DCPM staff
member, this requirement is not enforced. Furthermore, the project management
training provided by the Office of Administration does not address the SDLCM
requirements. NRC requires that the SDLCM methodology be followed by everyone
involved in the application systems development and maintenance process at NRC.
However, specific training on the methodology is required only of NRC employees
assigned to be task managers under NRC's Comprehensive Information Systems Support
Consolidation (CISSCO) program. Some work on STARFIRE is being performed by
the Computer Sciences Corporation under the CISSCO program, but the bulk of
the project is being conducted by other contractors. Since NRC has no current
documented approach on how to implement the fully integrated system it envisions,
it is impossible to identify when the system will be complete or at what cost
to the agency.
STARFIRE Project Bears Similarities to Previous Agency Information Technology
Development Efforts
Our review of STARFIRE is the latest in a series
about systems development and implementation projects at the NRC. Our previous
work includes a review of agency oversight of information resources management
activities (1996), the Pay/Pers system (1996), the M-Cubed contract (1996), the
PC Refresh Program (1998), and the Agencywide Documents Access and Management
System (ADAMS) project (1999). These reviews have consistently reported issues
and problems with NRC's management and oversight of IT projects. While the
agency has made improvements in how it budgets for and plans new systems
development efforts, we believe the STARFIRE experience demonstrates continuing
deficiencies in the management and oversight of such projects.
One common thread that runs through all these
projects is that costs seem to increase without limit. In other words, as long
as funds are available and oversight is lacking, systems development projects
seem free to continue on for indefinite periods of time and at increasing costs.
In the immediate experience, STARFIRE started out to be a $6.9 million, 2½ year
project, featuring a Core Accounting Module integrated with a suite of other
modules. Currently, the agency has spent $6.7 million (with an additional $2
million awarded) and has not deployed any modules, and plans for the Core have
been postponed until FY 2002 or later. Pay/Pers, which promised to deliver a
labor cost distribution system, was a project that was over budget and schedule,
and did not deliver what the agency intended.
STARFIRE is one of the first NRC IT projects
that has attempted to employ the SDLCM methodology and to follow the CPIC
process. While STARFIRE managers have followed certain aspects of both of these
project management strategies, the STARFIRE experience demonstrates that the
agency still has not fully implemented the process and methodology for managing
its IT projects. Until the agency comes to terms with the need to employ these
strategies in a rigorous manner, IT system development efforts will remain
dubious. Furthermore, NRC guidance assigns the agency's Executive Council16
responsibility for reviewing "major IT projects that are at risk for a
significant variation from their approved cost, schedule, or performance goals
[and deciding] whether or not to continue, modify, or terminate such projects."
However, we believe the phrase "significant variation" does not provide adequate
guidance to facilitate the EC's ability to make fully-informed decisions
concerning whether or not to "continue, modify, or terminate major IT
projects.
Conclusion
While STARFIRE is still envisioned to become a fully integrated agency-wide
financial management system, the effort to implement the cornerstone of the
system was unsuccessful. Yet, the agency, while continuing to pursue its final
vision, has not updated its plans or reestimated the overall costs and schedule
to achieve this vision. Although STARFIRE was to be completed by October 1999
at a cost of $6.9 million, the agency has, to date, spent nearly $7 million
on the project, and no modules have been deployed. By failing to follow key
aspects of the agency's guidance on developing IT systems, and by failing to
provide adequate project oversight, NRC finds itself without a lessons-learned
document and without an up-to-date plan for achieving its vision for STARFIRE.
We believe the agency runs considerable risk of repeating its own history by
spending far more than anticipated on the project over an extended period of
time as a result, and not getting what it intends from the effort.
Recommendations
Our recommendations are aimed at ensuring that
STARFIRE and future IT projects are effectively and efficiently managed.
First, we recommend that, with regard to STARFIRE, the Chief
Financial Officer:
Document lessons learned from the unsuccessful attempt to implement the
Core Accounting Module
Reassess the overall STARFIRE project expectations, goals, and methodology,
and revise appropriate business case documents to reflect the current approach.
In doing so, estimate total cost and schedule, while maintaining the original
baselines for the project
Adhere to agency guidance on IT system development by updating project
action plans and schedules, and including key components of the SDLCM as
appropriate (e.g., plans for quality assurance and risk mitigation).
With regard to IT project management at NRC, we recommend that the
Chief Information Officer:
Ensure that the Executive Council is fully aware of the circumstances
surrounding the need for a "significant variation"17
from approved cost, schedule, and performance goals for major IT projects. As
part of this, recommendation, define "significant variation" and ensure that
this definition accounts for aggregate changes that may total to a
"significant" level. Refining this definition should better enable the EC to
make fully-informed decisions on whether to continue, modify, or terminate IT
projects.
Finally, we recommend that the Executive Director for Operations:
Incorporate training on the CPIC process and the SDLCM methodology into
project management training, and require the training for all individuals
responsible for IT project management
Ensure that DCPM provides necessary oversight of the entire STARFIRE project,
including invoice review, monitoring of deliverable dates, and overall project
cost.
OIG Comments on Agency Response
On June 19, 2000, the Deputy Chief Financial
Officer, the Acting Chief Information Officer, and the Deputy Executive Director
for Management Services responded to our draft report. They agreed with our
recommendations and provided the corrective actions planned to address our
concerns and time frames for these actions.
The agency's response also included four
comments concerning information presented in the report, and we feel it is
important to respond to these comments. Comment number one states that the
report "does not acknowledge those planning aspects and project management of
STARFIRE that worked well." The agency states, "the draft document does not
acknowledge that the system worked effectively to promptly terminate a contract
when the vendor failed to perform." From our perspective, it is not possible to
categorize the termination as a project management success until all of the
factors that preceded the decision to terminate (e.g., development of functional
requirements, product testing, deliverable schedule, vendor selection) are
assessed in a lessons-learned analysis. Until such analysis is complete, and the
entire contract is examined, we cannot agree that this situation demonstrated
effective project management.
The agency's second comment implies that our use
of $6.9 million as the baseline cost of the system is not accurate. We restate
our basis for use of the $6.9 million figure. This is the amount presented in
NRC's December 1997 STARFIRE Capital Planning and Investment Control (CPIC)
document. Furthermore, our draft (and final) audit report acknowledges the July
1998 addendum to the CPIC, which added $1.35 million to the estimate and which,
we were told, was the basis for the increased figure provided to OMB.
In response to the agency's third comment, we
agree that the original vision of STARFIRE has not changed. However, the agency
does not know when this vision will be achieved or at what cost. In lacking both
time and cost estimates for core implementation, the agency has no clear roadmap
for achieving its goal. Finally, with regard to the agency's final point
concerning the evolving vision for STARFIRE, we note that our report simply
reflected the information provided to us on more than one occasion during the
course of our audit.
Appendix I: Objective, Scope, and Methodology
The primary objective of our audit was to
determine whether the U.S. Nuclear Regulatory Commission (NRC) has a sound
methodology in place for implementing an integrated financial management system
(the Standard Financial and Integrated Resource Enterprise [STARFIRE] system)
that meets expectations (performance), at cost, and within expected time frames
(schedule). To accomplish this objective, we focused on three sub-objectives to
determine (1) applicable criteria and methodology NRC is to adhere to in
developing and implementing STARFIRE; (2) the cost, schedule, and deliverables
to date (in relation to what was planned); and (3) the expected cost, schedule,
and performance of STARFIRE as it exists today and what it is expected to be.
We reviewed the agency's management controls and
the effectiveness of those controls related to the STARFIRE project. In order to
determine the current status of STARFIRE, we interviewed personnel in the Office
of the Chief Financial Officer, Office of the Chief Information Officer, Office
of Human Resources, and Office of Administration. We also interviewed staff from
the Computer Sciences Corporation (contractor for the Comprehensive Information
Systems Support Consolidation program) involved in the development of the
system. We reviewed guidance documents for information technology project
development (Capital Planning and Investment Control (CPIC), System Development
and Life-Cycle Management Methodology, and applicable Management Directives),
current project plans (STARFIRE CPIC, Project Action Plan, and functional
requirements), schedules and status, project costs and budget, and contracting
information. Furthermore, we reviewed previous Office of the Inspector General
reports related to control over IT projects. We conducted our audit from October
1999 to March 2000 in accordance with generally accepted Government auditing
standards.
Appendix II: Agency Response to Draft Report
MEMORANDUM TO:
Stephen D. Dingbaum
Assistant Inspector General for Audits
FROM:
Peter J. Rabideau
Deputy Chief Financial Officer
Stuart Reiter
Acting Chief Information Officer
Patricia G. Norry
Deputy Executive Director for Management Services
SUBJECT:
Draft Audit Report -- Review of the Development and Implementation of
STARFIRE
Thank you for the opportunity to comment on the draft OIG audit report and
to respond to the six recommendations. Our responses to the recommendations
are as follows:
Recommendation 1.
The CFO should document lessons learned from the
unsuccessful attempt to implement the Core Accounting Module.
Response.
Agree. We will formally document lessons learned by the first of the calendar
year.
Recommendation 2.
The CFO should reassess the overall STARFIRE
project expectations, goals, and methodology, and revise appropriate business
case documents to reflect the current approach. In doing so, estimate total cost
and schedule, while maintaining the original baselines for the
project.
Response.
Agree. We will formally reassess STARFIRE project expectations along with updating
the requisite documentation by the end of FY 2000. As the OIG is aware, we intend
to complete the STARFIRE project in two phases with the second phase beginning
after FY 2002. Therefore, we will be estimating the second phase costs and performing
the required CPIC analyses prior to implementing this phase. We will evaluate
the need for a revised CPIC on the first phase.
Recommendation 3.
The CFO should adhere to agency guidance on IT
system development by updating project action plans and schedules, and including
key components of the SDLCM as appropriate (e.g., plans for quality assurance
and risk mitigation).
Response.
Agree. We will fully adhere to agency guidance on IT system development and
update project action plans and schedules by the first of the calendar year.
Recommendation 4.
The CIO should ensure that the Executive Council
is fully aware of the circumstances surrounding and the need for a "significant
variation" from approved cost, schedule, and performance goals for major IT
projects. As part of this recommendation, define "significant variation" and
ensure that this definition accounts for aggregate changes that may total to a
"significant" level. Refining this definition should better enable the EC to
make fully-informed decisions on whether to continue, modify, or terminate IT
projects.
Response.
Agree. OCIO will address the clarity of the definition of "significant variation"
from baseline cost and schedule during the CPIC lessons learned review which
is currently underway. That review is scheduled to be completed in the fourth
quarter of FY 2000.
Recommendation 5.
The EDO should incorporate training on the CPIC
process and the SDLCM methodology into project management training for all
individuals responsible for IT project management.
Response.
Agree. The NRC has long recognized the
importance of developing and maintaining a competent acquisition workforce. In
1991 the EDO directed that project managers take NRC acquisition training
courses. A comprehensive five-day training program was in place to meet that
requirement.
More recently, HR and ADM replaced the week-long
training with a more flexible eleven-module training program covering every
aspect of acquisition management including developing an independent cost
estimate, preparing statements of work, and contract administration. In May 2000
the EDO established the Agency Acquisition Certification and Training Program
which requires project managers to attend five core acquisition modules, and
recommends attendance, as needed, at the remaining six modules.
ADM will work with OCIO and HR to revise the current mandatory acquisition
modules to include appropriate guidance on the CPIC process and the SDLMC methodology.
ADM expects to incorporate necessary changes in the course curricula by September
30, 2000.
Recommendation 6.
Ensure that DCPM provides necessary oversight of
the entire STARFIRE project, including invoice review, monitoring deliverable
dates, and overall project cost.
Response.
Agree. As acknowledged in the report findings,
DCPM has taken steps to assure timely review of invoices and monitoring of
contractor conformance with delivery requirements for individual contracts
awarded under the STARFIRE project. With regard to oversight for the entire
STARFIRE project, DCPM will work with the CFO and CIO as appropriate to monitor
this major IT initiative consistent with requirements of the Clinger-Cohen
Act.
We have the following comments to ensure completeness of the audit report.
The IG Draft Audit report does not
acknowledge those planning aspects and project management of STARFIRE that
worked well.
The draft document does not acknowledge that the
system worked effectively to promptly terminate a contract when the vendor
failed to perform. This follows guidance in the Information Technology
Management Reform Act (ITMRA) to assess projects and make a determination of the
viability of the projects success. Without effective project management, and
without appropriate contracting oversight, the project could have gone on for an
extended time without producing the desired system. The project was terminated
in a timely manner, cost to NRC was minimized, and other modules of the project
are continuing. Additionally, based on contractual arrangements, the vendor was
not to be paid until NRC accepted the implemented module. The vendor worked for
approximately 18 months without being paid. In return for the $450K that was
spent on a negotiated settlement with the terminated contractor, the agency
received travel software with a market price of between $150K and $200K and
avoided potential expensive litigation. It should also be pointed out that the
Core Accounting System that was rejected currently is not operating without
major problems in any agency in which it is being implemented.
The audit report should also acknowledge that
the modular contracting strategy employed by the project has the following
merits:
(a) It allowed other components to continue
after the Core Accounting Module contract was terminated.
(b) It allows the agency to realize benefits as
modules are implemented.
(c) It is a comparatively low risk approach, promoted by the Clinger-Cohen
Act.
The IG Draft Audit report appears to imply in
several places that a baseline system cost of the system was $6.9 million.
The audit report should acknowledge that the baseline "full acquisition" cost
reported to OMB in Exhibit 300B of the NRC FY 2000 budget submission was $8.4
million. Exhibit 300B is a formal document reviewed and approved by NRC management
as part of its budget request. In addition, the Exhibit 300B of the NRC FY 2001
budget submission identifies an estimated increase in project cost, a revised
overall project cost and describes the variation in project approach stemming
from the termination of the contract for the core accounting module.
On page 8 the report states, "Without the Core, the goal of a fully
integrated system cannot be achieved."
What the STARFIRE project initially desired was
to obtain all envisioned modules in one integrated package from one vendor.
Because one of the modules was core accounting we were required to obtain the
software only from JFMIP approved vendors. When we solicited bids from JFMIP
approved vendors, no vendor had all the desired modules in one integrated
package. All were required to interface their product with other vendor products
to achieve the desired results. Therefore, STARFIRE was going to be a
combination of integrated and interfaced modules. Although we are proceeding
without the core accounting vendor we selected, the concept of STARFIRE being a
combination of integrated and interfaced modules has not changed.
On page 13 the report states, "...the
STARFIRE Project Manager told us that the initial vision for STARFIRE is
changing in the sense that the final system may not include an executive
information system, a data warehouse, and a Performance Measurement module."
This statement requires clarification. It was
initially envisioned that STARFIRE would have to buy hardware and software to
provide for an executive information system, a data warehouse and performance
measurement. While we still plan for this functionality, STARFIRE may be able to
take advantage of existing hardware or software rather than making an additional
purchase. For example, the NRC will be studying the possibility of building an
agency-wide data warehouse. If this happens, STARFIRE may be able to take
advantage of this resource and not purchase its own. Also, if reports from the
implemented cost accounting module can satisfy the requirements of a Performance
Measurement module it would not be prudent to buy additional software.
STARFIRE's vision is to deliver functionality needed for the agency and that
vision does not change because we take advantage of other existing hardware or
software.
cc:
W. Travers, EDO
J. Funches,
CFO
Appendix III: NRC Organizational Chart
Appendix IV: Major Contributors to this Report
Anthony LipumaTeam Leader
Judy GordonSenior Management
Analyst
Gina Smith
Senior Auditor
Appendix V: Office of the Inspector General Products
Investigative
1. INVESTIGATIVE REPORT - WHITE
COVERAn Investigative Report documents pertinent facts of a case and
describes available evidence relevant to allegations against individuals,
including aspects of an allegation not substantiated. Investigative reports do
not recommend disciplinary action against individual employees. Investigative
reports are sensitive documents and contain information subject to the Privacy
Act restrictions. Reports are given to officials and managers who have a need to
know in order to properly determine whether administrative action is warranted.
The agency is expected to advise the OIG within 90 days of receiving the
investigative report as to what disciplinary or other action has been taken in
response to investigative report findings.
2. EVENT INQUIRY - GREEN COVER The Event
Inquiry is an investigative product that documents the examination of events or
agency actions that do not focus specifically on individual misconduct. These
reports identify institutional weaknesses that led to or allowed a problem to
occur. The agency is requested to advise the OIG of managerial initiatives taken
in response to issues identified in these reports but tracking its
recommendations is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction
of problems and to avoid similar issues in the future. Agency tracking of recommendations
is not required.
Audit
4. AUDIT REPORT - BLUE COVERAn
Audit Report is the documentation of the review, recommendations, and findings
resulting from an objective assessment of a program, function, or activity.
Audits follow a defined procedure that allows for agency review and comment on
draft audit reports. The audit results are also reported in the OIG's
"Semiannual Report" to the Congress. Tracking of audit report recommendations
and agency response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY
COVERA Special Evaluation Report documents the results of short-term,
limited assessments. It provides an initial, quick response to a question or
issue, and data to determine whether an in-depth independent audit should be
planned. Agency tracking of recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
1. Parallel testing actually began on April 4, 2000.
2. The acronym, STARFIRE, stands for Standard Financial and
Integrated Resource Enterprise system.
3. The NRC STARFIRE web site was launched in February 2000.
4. A July 1998 addendum to the CPIC added $1.35 million to
the estimate for implementation of the Basic Human Resources Information System
(HRIS), also referred to as the Human Resources (HR) module.
5. During the course of this audit, we observed that the
contracting vehicles used to acquire services for the STARFIRE effort were
sometimes referred to as purchase orders and sometimes as delivery orders. For
purposes of this report, we are using the term purchase order to refer to these
agreements.
6. There are two components to the Human Resources Module:
Basic HRIS and Full HRIS. Basic HRIS, necessary for the implementation of
STARFIRE, is being paid for by OCFO, while the additional components to Full
HRIS will be paid for by the Office of Human Resources (HR). Basic HRIS
comprises the functionality needed to support implementation of the Payroll and
Time and Labor modules. Full HRIS, which is not considered part of STARFIRE, is
expected to consolidate many of the existing HR systems and bring new HR
management capabilities to the agency.
7. With the issuance of this purchase order, work performed
for Full HRIS will now be completed under a separate purchase order managed by
HR.
8. This contract was prepared with a three-phase approach
consisting of a phase I period for $416,966 (including $50,000 for travel
expenses), and two optional phases.
9. Parallel testing actually began on April 4, 2000. During
parallel testing, data is entered into both the new modules and the existing NRC
payroll system to determine if both systems produce consistent results.
10. Implementation was to occur in October 1998.
11. OIG/97E-10, Evaluation
of Best Practices for Developing and Implementing Integrated Financial Management
System, dated June 9, 1997.
12. Capital Planning and Investment Control, May
27, 1999.
13. Application Systems Life Cycle Management.
14. As of March 2000, a final version of MD 2.5 had not
been approved.
15. According to the SDLCM guidance the project management
plan is a subsection of the Project Action Plan.
16. NRC's Executive Council is composed of the CIO, CFO,
and EDO.
17. We are referring to the term, "significant variation,"
as it is used in MD 2.2 to describe the EC's responsibility in connection with
the CPIC process.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees